FAA NEEDS TO IMPLEMENT MORE EFFICIENT
   PERFORMANCE-BASED NAVIGATION
  PROCEDURES AND CLARIFY THE ROLE
           OF THIRD PARTIES
      Federal Aviation Administration
       Report Number: AV-2011-025
      Date Issued: December 10, 2010
           U.S. Department of
                                                               Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Needs To Implement More                                          Date:    December 10, 2010
           Efficient Performance-Based Navigation
           Procedures and Clarify the Role of Third Parties
           Federal Aviation Administration
           Report Number AV-2011-025

  From:    Jeffrey B. Guzzetti                                                       Reply to
                                                                                     Attn. of:   JA-10
           Assistant Inspector General
            for Aviation and Special Program Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration (FAA) is developing the Next Generation
           Air Transportation System (NextGen) to move today’s ground-based air traffic
           control system to a more efficient one that relies on satellite-based navigation
           systems on-board aircraft. A fundamental building block for NextGen is
           establishing new flight procedures using Area Navigation (RNAV) and Required
           Navigation Performance (RNP) specifications. The potential benefits of RNAV
           and RNP are significant and include shorter, more direct flight paths; improved
           airport arrival rates; enhanced controller productivity; fuel savings; and reduced
           aircraft noise.

           While FAA has implemented over 600 RNAV and RNP 1 procedures since 2005,
           industry representatives have expressed concerns with both their quality and
           timeliness. In 2004, industry representatives asked FAA to allow third parties to
           assist the Agency in developing new procedures. In response, FAA entered into
           agreements in 2007 with two non-governmental third parties to develop and
           implement RNP procedures.

           At the request of the Chairman of the House Subcommittee on Aviation, we
           evaluated FAA’s oversight of RNP third-party agreements. The Chairman stated
           that a clear understanding of FAA and third-party processes, roles, and
           responsibilities is needed before any expansion of their role occurs. Accordingly,

           1
               For the purposes of this report, the number of RNAV and RNP procedures represents RNAV Standard Instrument
               Departures (SID), RNAV Standard Terminal Arrivals (STAR), and RNP Authorization Required (AR) approaches.
                                                                                                                   2


our audit objectives were to (1) assess the extent to which FAA is relying on third
parties to develop new procedures and (2) determine whether FAA has sufficient
mechanisms and staffing to provide safety oversight of third parties’ procedure
development process.

On July 29, 2009, we testified before the House Subcommittee on Aviation
regarding the challenges in implementing performance-based navigation in the
U.S. air transportation system. 2 We included the results of our work to date on
third-party agreements and highlighted actions FAA should take to effectively
implement RNAV/RNP. At that time, FAA had not clarified its role with regard
to new RNP procedures. Since then, FAA has stated that it will be the primary
entity designing and implementing RNP procedures for the National Airspace
System. Therefore, this report focuses on FAA’s implementation strategy going
forward and the potential role of third parties and formally transmits our
recommendations to FAA. We conducted this review from March 2009 to
October 2010 in accordance with generally accepted government auditing
standards prescribed by the Comptroller General of the United States. Exhibit A
details our scope and methodology. Exhibit B lists the specific locations we
visited or contacted.

RESULTS IN BRIEF
FAA has clarified its role in developing new RNP procedures, stating that it will
primarily rely on its own resources rather than third parties. Therefore, the role of
the two third parties FAA has approved to develop RNP procedures remains
unclear, as well as FAA’s strategy for implementing timely, high-value routes
using in-house resources. Thus far, FAA has mostly delivered overlays of existing
routes that do not provide shorter flight paths to alleviate airspace congestion—a
major industry concern. This is because FAA has mainly focused on developing a
targeted number of procedures each year, not measuring user benefits. As a result,
airlines have not widely used FAA’s RNP procedures and state that third parties
may provide additional technical expertise to develop the procedures they need.
FAA contends that it has the technical expertise to deliver more efficient
procedures without third parties but has yet to assess its in-house skill mix.

FAA also has not fully established an oversight program for third parties, defined
the staffing levels needed to oversee them, or finalized key guidance to industry on
qualifications to become a third-party developer. Such guidance is essential, as
third parties would perform procedural development and maintenance functions
historically performed solely by FAA. In 2007, FAA’s Flight Standards Service
established a third party oversight office, but it will be difficult to determine how

2
    OIG Testimony Number CC-2009-086, “Challenges in Implementing Performance-Based Navigation in the U.S. Air
    Transportation System,” July 29, 2009. OIG reports and testimonies are available on our website: www.oig.dot.gov.
                                                                                 3


many staff this office will need until FAA better defines the extent of third party
use. FAA also faces resistance to the third-party program within its Air Traffic
Organization (ATO) Office of Aviation Systems Standards and organizational
barriers among various lines of business that could delay new, comprehensive
oversight policies. Thus far, these problems have impeded FAA’s ability to
oversee its own procedures, which raises questions as to how effectively FAA can
monitor third parties. Without a coordinated oversight system in place, the
potential for operational and safety risks increases.

We are making a series of recommendations to help FAA effectively implement
and coordinate RNAV/RNP procedures and establish an oversight program for
third parties.

BACKGROUND
NextGen will rely on new routes and procedures that primarily use satellite-based
navigation and on-board aircraft equipment to navigate with greater precision and
accuracy. These new routes and procedures are commonly referred to as RNAV
and RNP. For RNAV, pilots can use a combination of Global Positioning System
(GPS) and other self-contained systems on-board aircraft to fly any desired flight
path by reducing the limitations imposed by ground-based navigation systems.
RNP is a form of RNAV that adds monitoring and alerting capabilities to the
cockpit to alert the pilot when the aircraft cannot meet specified navigation
performance requirements. RNP has the potential to allow more “lanes” or routes
in the same airspace, creating additional capacity where needed.

Traditionally, aircraft have been required to fly routes between ground-based
navigational aids to maintain required navigation accuracy of on-board systems.
RNAV and RNP can increase airspace efficiency by providing more direct paths
(see figure below), thereby improving airport arrival rates, enhancing controller
productivity, saving fuel, and reducing aircraft noise.
                                                                                                                    4


           Figure. Conventional, RNAV, and RNP Navigational Methods




      Source: FAA

 RNP approach procedures can be developed as public or special procedures.
 Public procedures are available to all operators that have been properly trained,
 equipped, and certified. Special RNP procedures are only available to a specific
 operator for whom the procedure was designed but may be authorized for others
 upon request. While FAA allows special RNP procedures, these have historically
 been authorized on a limited basis. Of the 225 existing RNP approach procedures,
 only 35 are specials. Table 1 provides details on the differences between public
 and special procedures.

                         Table 1. Public and Special RNP Procedures
      Requirements                  Public RNP Procedures                        Special RNP Procedures

Who Can Use the              Available to all qualified operators          Issued to the specific operator for
Procedure?                   that have been properly trained,              which the procedure was designed;
                             equipped, and certified                       other operators may request.
Publication/Federal          Federal Register in accordance                Not Published/Non-Part 97
                                                    /a
Aviation Regulation          with 14 C.F.R. Part 97
Number of                    190 RNP                                       35 RNP
Procedures
Who Develops and             FAA’s Office of Aviation System               FAA’s Office of Aviation System
Implements?                  Standards                                     Standards and private industry
                             Third parties                                 procedure developers (airlines and
                                                                           third parties)
                                   /b                                                                 /c
Who pays?                    FAA                                           Airspace user and FAA

 /a    Standard Instrument Procedures, 14 C.F.R. § 97 (1963). This FAA regulation governs the development of
       standard instrument approach procedures to airports in the United States.
 /b    Public procedures developed by FAA are offered at no cost to airspace users. However, airlines will be expected
       to pay for public procedures that are developed by third parties.
 /c    Airspace users usually pay for special procedures, but FAA may provide this service to industry in some cases.
                                                                                                                     5


In 2004, a joint FAA and industry group 3 recommended that FAA begin using
third parties to develop and speed the adoption of RNP procedures. In response,
FAA entered into agreements in 2007 with two non-governmental third parties—
Naverus and Jeppesen-Sanderson, a subsidiary of the Boeing Company—to
design, integrate, test, and validate public RNP procedures. In 2007, FAA also
established an oversight office within its Flight Standards organization to oversee
the third party program. 4 On September 25, 2009, the two vendors were certified
and approved by FAA to design public-use approaches in the U.S. airspace
system.


FAA HAS NOT WIDELY IMPLEMENTED EFFICIENT RNP
PROCEDURES OR CLARIFIED THE ROLE OF THIRD PARTIES
FAA has not clearly communicated to Agency personnel and industry how and to
what extent it will use third parties to implement new flight procedures. While
FAA has granted authority to two third parties to develop public RNP procedures,
it plans to primarily rely on its own resources to develop and implement
RNAV/RNP procedures. However, FAA has yet to widely implement the more
efficient procedures that provide new benefits to airlines and lacks an effective
method for deploying procedures that considers how they will impact air traffic
policies and whether they are working as intended. Until FAA designs and
implements more efficient procedures, it will continue to expend resources to
deploy procedures that carriers do not use and therefore do not achieve expected
benefits across the National Airspace System.

FAA’s Goals for Implementing New Flight Procedures Have Not Been
Well-Targeted, and the Planned Use of Third Parties Will Not Meet
Industry’s Expectations
FAA’s published strategic plan 5 simply states that it will produce 50 RNP
procedures annually through 2012. There is no mention of how or whether it will
share development responsibilities with third parties. Although FAA has stated
that it plans to use its own personnel rather than third party vendors to design and
implement new flight procedures, it has not performed a detailed assessment of its
in-house skill mix and expertise to determine whether the Agency can design and
deliver more efficient routes in a timely manner consistent with industry’s demand
for high value routes. Given this uncertainty—and FAA’s focus on the quantity of

3
    The Air Traffic Management Advisory Committee (ATMAC) is a Federal advisory committee that recommends
    government/industry, consensus-based investment priorities to the Federal Aviation Administration that will improve
    the safety, capacity, or efficiency of the United States air transportation system.
4
    FAA’s Flight Standards Flight Procedures and Implementation and Oversight Branch (AFS-460) is responsible for
    managing and overseeing the third-party procedure development program.
5
    FAA's 2009-2013 Flight Plan.
                                                                                                              6


procedures rather than expected benefits—airlines and industry are skeptical of
FAA’s ability to develop procedures that allow for more efficient arrivals and
departures. A recent industry report on advancing NextGen stated that FAA lacks
the resources to design and install new flight procedures in a timely manner and
specifically recommended that FAA make greater use of third parties. 6 However,
FAA contends that it has sufficient technical expertise and is committed to move
away from the production goal methodology beginning in fiscal year (FY) 2011.
The Director of Airspace and Aeronautical Information Management told us that
FAA is currently working with industry lead operators on specific projects in
which the Agency is developing procedures that offer the more efficient attributes
requested.

FAA officials have stated that the intent of the third-party initiative was to provide
operators with FAA-qualified vendors who could develop public procedures
where existing infrastructure was lacking or where there were no complex airspace
integration issues. However, this approach will not meet airlines’ expectations
because it would not speed development of new procedures at congested airports,
which would be a higher priority for major airlines and critical for advancing
NextGen through improved airspace operations. Further, using third parties to
develop public procedures may not be practical. Third parties have not developed
these in the past, and the extent to which air carriers will hire them to do so is
unknown. While public procedures developed by FAA are offered at no cost to
airspace users, airlines will be expected to pay for those developed by third parties
and would be responsible for procedures that other carriers can use at no cost.
While airlines value the technical expertise that third parties can provide, they may
not find it cost beneficial to pay for RNP procedures that would benefit their
competitors. In addition, according to one of the third-party vendors, the
agreement with FAA is not cost beneficial for them because it specifies that third
parties will be responsible for maintaining the procedures, which increases their
liabilities, risks, and overall costs.

Therefore, FAA officials are now concerned that air carriers will increasingly
request third parties to produce special procedures that provide more benefits and
are tailored to their specific needs, rather than rely on the public procedures.
Although FAA has had a process in place for years in which third parties have
developed special procedures as requested by specific operators, FAA approved
these only on a case-by-case basis. FAA states that an increasing number of
special procedures will further complicate the workload of air traffic controllers
and increase the complexity of the current air traffic control system.



6
    Report by Aerospace Industries Association, “Civil Aviation Growth in the 21st Century: Meeting Capacity and
    Environmental Challenges,” September 2010.
                                                                                                                  7


FAA’s Overlays of Existing Routes Have Resulted in Limited Benefits
for Enhancing the Flow of Air Traffic
While FAA has met or exceeded its annual RNP production goals, most of the
RNP procedures it has deployed have been overlays of existing routes. While
overlaid procedures can be deployed more quickly because they do not have to
undergo extensive environmental reviews, they do not maximize the benefits that
can be achieved through RNP procedures, such as new, more direct flight paths.

FAA officials state that overlaid RNP procedures have provided benefits and that
they were a necessary step for introducing RNP procedures into the National
Airspace System. However, airline representatives assert that the overlays only
provide limited benefits. Specifically, the benefits that FAA cites—such as
serving as a back-up to ground-based navigation aids in case of system failure,
transitioning from a traditional instrument landing system (ILS) 7 airspace to a high
performance network of procedures, and reducing the time involved in
environmental reviews—do not equate to measurable capacity gains for the
airlines. Representatives for major airlines that are RNP-equipped want FAA to
develop RNP routes and procedures that maximize the full benefits of RNP, such
as curved paths into airports. However, FAA officials told us that developing
curved approaches may present operational challenges in air traffic environments
such as New York because of the traffic density and airspace limitations and may
not be feasible from an operations standpoint.

FAA agrees that it needs to move beyond basic overlays to incorporate flight path
patterns that better address capacity and throughput, improve airport arrivals and
departures during poor weather conditions, and enable improved and efficient flow
of traffic. FAA has recently developed new RNP procedures with curved paths in
a few locations, such as Raleigh-Durham. While FAA is committed to producing
more efficient procedures going forward, without a detailed assessment of its in-
house resources and training to do so, it is unclear whether the Agency can
adequately fulfill industry needs in a timely manner or the extent to which it must
rely on the use of third parties. A joint Government/industry task force charged
with identifying mid-term actions FAA should take to advance NextGen reported
in 2009 that the availability of critical expertise at FAA has been a bottleneck in
the past and that training enough procedure development teams will be a key
challenge. 8




7
    An instrument landing system (ILS) is a ground-based instrument approach system that provides precision guidance
    to an aircraft approaching and landing on a runway.
8
    Final Report of the RTCA NextGen Mid-Term Implementation Task Force Report, September 9, 2009.
                                                                                                              8


FAA Has Not Ensured That Air Traffic Control Policies Allow the Use
of RNP at Some Congested Airports
FAA has implemented RNP procedures at airports without ensuring that air traffic
policies would allow their use. For example, in May 2007, FAA implemented
10 RNP procedures 9 at Atlanta Hartsfield-Jackson International Airport, but air
traffic controllers have never cleared an aircraft to land using these procedures
because current air traffic regulations do not allow their use for simultaneous
operations at certain airports with parallel runways.

The Atlanta Hartsfield-Jackson International Airport, which is one of the busiest
airports in the world, has closely spaced parallel runways (less than 2,500 feet
between parallel runways). Due to high volumes of air traffic during peak hours,
the airport must maintain capacity by allowing parallel landings for aircraft.
However, current regulations 10 state that only an aircraft flying an ILS approach,
not RNP, can be used at airports with parallel runways. This restriction also
affects other high-density airports, such as Miami, Los Angeles, and Dallas/Ft.
Worth. Allowing approaches based solely on RNP or a combination of ILS,
RNAV, and RNP for parallel approaches is currently prohibited unless FAA grants
a waiver. To issue a waiver, FAA must perform a safety study, which can take
several years to complete.

FAA recently completed a 4-year safety study to determine whether the
regulations can safely be updated through a project at George Bush
Intercontinental Airport (IAH) in Houston. On July 31, 2009, FAA granted a
waiver to its air traffic regulations allowing IAH controllers to clear aircraft using
a combination of ILS, RNAV, and RNP for parallel approaches to support its dual
or triple parallel runways. FAA is now determining whether the regulations can
be safely updated at other airports.

Even if FAA updates its policies and determines that RNP can be allowed at
airports with parallel runways, airline representatives told us that they would not
use the RNP procedures at Atlanta because they are overlays of existing
conventional procedures, thus providing little or no added benefits other than a
backup in the event the ground-based navigation aid shuts down.

FAA Does Not Analyze the Effectiveness of New Procedures in
Improving Air Traffic Operations
FAA lacks an adequate process for assessing the effectiveness of new flight
procedures—both before and after their implementation. While FAA has

9
     These 10 RNP procedures were overlays of existing procedures.
10
     FAA Order JO 7110.65 Air Traffic Control Handbook, paragraphs 5-9-6 and 5-9-7 prescribe aircraft separation
     standards required for parallel dependent and simultaneous independent operations.
                                                                                                              9


implemented RNP at sites recommended by a joint FAA and industry group, 11 the
sites were based on priorities established 5 years ago. FAA followed the original
2005 priority list provided by industry for selecting RNP sites without performing
updated analyses to identify expected benefits before implementing the new
procedures. Currently, FAA only does benefit analyses for select, individual
procedures. In addition, FAA program officials do not track data that would show
how often airlines use RNP procedures, whether they obtain expected benefits, or
why they are not using certain procedures.

Unless FAA establishes an approach that relies on benefit analysis from a “before-
and-after” perspective in close coordination with airlines and air traffic control
facilities, it will continue to expend resources on procedures that carriers do not
use and do not provide measurable capacity gains. For example, in late 2005,
FAA designed and implemented a public procedure in Palm Springs; yet, no air
carrier has used the procedure in the 4 years since it was implemented because its
design does not provide shorter flight paths or the ability to fly at lower altitudes.
According to a major airline that uses this airport, FAA did not adequately
coordinate with all stakeholders, including air traffic controllers, before
implementing this procedure to ensure that the airport would use it and that it
would provide benefits.

An RNP procedure FAA deployed at Reagan Washington National Airport in
2005 has demonstrated some benefits, but only a few airlines are actually qualified
to use it. The procedure allows pilots to follow a more precise path—not available
through conventional or RNAV procedures—along the Potomac River while
avoiding restricted airspace and obstacles.

FAA still has much work to do to analyze its in-house expertise and the potential
role of third parties; however, it must also focus on targeted benefit analysis and
improved coordination with airport stakeholders for the procedures it is
implementing now. Otherwise, airlines will be left with little assurance that FAA
can shift to a more effective approach in the future.

To its credit, FAA has stated that it is committed to improving its procedure
implementation process by focusing on measuring and demonstrating benefits of
new procedures going forward. In addition, in response to the 2009 joint
Government/industry task force report, FAA initiated a cross-agency project to
streamline the processes used to request, prioritize, approve, and implement new
flight procedures. In FY 2011, FAA will begin implementing the review’s
recommendations and gathering data to perform pre-and post-implementation

11
     This particular FAA/industry group, known as the Performance-Based Operations Aviation Rulemaking Committee
     (PARC), provides a forum for the U.S aviation community to discuss, prioritize, and resolve issues; provide
     direction for flight operation criteria; and produce U.S. consensus positions for global harmonization.
                                                                                   10


benefit analysis for all performance-based navigation routes and procedures. FAA
is also in the early stages of forming joint agency-industry teams to focus on
deploying enhanced procedures at airports in busy metropolitan areas.


FAA HAS NOT FULLY ESTABLISHED A COORDINATED
OVERSIGHT FRAMEWORK FOR THIRD PARTIES
FAA has not yet developed an oversight program to ensure third parties properly
follow FAA design criteria and processes in integrating, validating, and
maintaining flight procedures. FAA’s Flight Standards office has drafted
guidance for industry on processes for authorizing third parties. However, FAA
has not finalized the guidance due to resistance from the ATO, which is
responsible for designing flight procedures. Yet, the ATO views the draft
guidance as critically important and wants Flight Standards to resolve its safety
concerns before publishing the guidance. FAA must also address the fragmented
efforts between its lines of business responsible for implementing and overseeing
new flight procedures. Without a coordinated oversight framework, the potential
for operational problems and safety risks will increase.

FAA Has Not Developed a Formal Oversight Program or Defined
Agency Staffing Needs
FAA has not established a plan for how it will oversee and monitor third parties
once they are qualified. FAA officials performed initial audits to qualify the two
third-party vendors, Naverus and Jeppesen, and stated their intent to initially
conduct 100 percent oversight of all the procedures developed by third parties.
Once third parties have successfully demonstrated that they can develop these
procedures on their own, FAA plans to schedule reviews every 2 years. However,
these are only conceptual plans at this point, not a formal oversight program.

FAA also has not developed a plan specifying which offices will perform safety
oversight reviews or how it plans to record and track results of the reviews.
Currently, FAA’s Flight Procedure and Implementation Oversight Branch (AFS-
460) can perform 100 percent oversight because there are only two procedures that
are under review. However, if the number of third-party vendors and procedures
increases, FAA may be unable to monitor them at that level. In addition, it will be
difficult for FAA to determine oversight staffing needs because the extent that
airlines will use third parties is unknown.

FAA officials told us that the 14 personnel in its oversight office were sufficient to
qualify the 2 vendors to design public procedures; however, the officials were
unsure whether they had sufficient resources to oversee these vendors once they
began designing more procedures or additional vendors if the program is
                                                                                                                      11


expanded. FAA must closely monitor staffing resources to ensure they keep pace
with a potentially increasing workload. Moreover, the oversight office will be
responsible for overseeing all flight validation activities performed by airlines and
third parties—a key part of the procedure implementation process to ensure that
the procedures are properly and safely working.

Representatives from the Flight Standards oversight office stated that they will
leverage resources by using aviation safety inspectors in the Certificate
Management Offices (CMO) and All Weather Operations (AWO) personnel to
perform oversight of flight validation in the field. 12 However, some CMO staff we
interviewed indicated that they did not know enough about RNP to validate work
performed by third parties. According to the Deputy Assistant Manager, Flight
Technologies and Procedures Division, CMOs will be trained when the time
comes for them to flight test procedures produced by third parties. However, it
will be difficult for FAA to add new duties for safety inspectors given that the
current inspector workforce already has difficulty completing all basic required
safety inspections.

FAA Has Been Unable To Establish Safety Oversight Guidance for
Third Parties Due to ATO Concerns
Lack of support from key managers within the ATO has impeded FAA’s efforts to
effectively establish a third-party oversight program. This resistance dates back to
at least May 2006 when Flight Standards recommended that third parties, rather
than FAA, be responsible for implementing all RNAV/RNP procedures (both
public and special). Due to opposition from the Director of Aviation System
Standards, 13 the recommendation was not approved. As a result, the third-party
agreements that FAA entered into with Naverus and Jeppesen over 3 years ago are
still based on Flight Standards’ draft guidance.

The ATO has not approved the guidance due to safety concerns. Specifically,
ATO managers are concerned about the safety of the policies and procedures third
parties must follow and the level of support the program will need from FAA.
ATO managers have also not approved separate guidance that ensures third parties
use valid computer software in designing new flight procedures due to potential
safety, security, and cost risks.

Under the third-party agreements, third parties are asked to perform functions
involving the development, implementation, and maintenance of public instrument
flight procedures—functions that have been solely performed by FAA in the past.
In response to the draft guidance for qualifying third-party vendors, FAA officials
12
     CMOs are the Flight Standards field offices responsible for overseeing the safety of each airline.
13
     This office is a part of FAA’s Air Traffic Organization responsible for designing and developing public and special
     instrument flight procedures (IFP).
                                                                                                                  12


in the ATO’s Office of Aviation System Standards expressed strong concerns
regarding the use and safety oversight of third parties. Specifically, they
questioned whether third parties will:

     • be held to the same level of standards for safety as FAA when developing
       procedures,
     • be able to effectively communicate across FAA’s lines of business to
       coordinate procedure development and integration,
     • possess the same level of training and experience required of FAA staff,
     • be able to access FAA databases for procedure development, maintenance and
       Notices to Airman (NOTAM) 14 publication,
     • be able to determine when full environmental assessments are required, and
     • properly integrate third party procedures in the National Airspace System.

Another issue that caused significant delays in implementing oversight guidance
was ATO’s concern about the third parties’ understanding of their role in
addressing environmental impacts of procedures they design. ATO did not believe
that the draft guidance for qualifying third parties provided a clear understanding
of the regulatory requirements for addressing environmental impacts. Normally, if
a procedure has been categorized as an overlay of an existing one, then FAA could
develop it without performing an extensive environmental assessment, which can
be lengthy and costly. The types of procedures that require no full environmental
assessment are Categorical Exclusions. 15 Categorical Exclusions are usually
reviewed, approved, and signed by the applicable FAA regional Flight Procedures
Office manager. However, when the third-party vendors submitted their first
public RNP procedures, which were overlays of existing conventional procedures,
FAA had a difficult time determining which official would be responsible for
reviewing and approving them for Categorical Exclusion. Nearly a year after
these procedures were completed and ready for publication, an FAA ATO
Headquarters official finally signed the Categorical Exclusions. Until FAA
clarifies the approval process for environmental reviews for third party
procedures, this will continue to be a challenge for FAA.




14
     Notice to Airmen, or NOTAMS, are created and transmitted by government agencies and filed with an aviation
     authority to alert aircraft pilots of any hazards en route or at specific locations.
15
     Categorical Exclusions are those types of Federal government actions that FAA has found, based on past experience
     with similar actions, do not normally require full environmental reviews because they do not individually or
     cumulatively have a serious effect on the human environment.
                                                                                         13


 Fragmentation and Uncertainty About Roles Among FAA Offices
 Impede FAA’s Efforts To Establish Cohesive Oversight of Flight
 Procedure Development
 FAA has yet to address organizational barriers and fragmented efforts within its
 lines of business that have hindered the Agency’s efforts to establish a coordinated
 oversight framework. As shown in table 2, several offices within FAA’s Aviation
 Safety organization and the ATO play a role in ensuring the safe development and
 integration of new flight procedures into the National Airspace System regardless
 of whether they are implemented by third parties or FAA internal personnel.

  Table 2. Roles and Responsibilities in the Development and Oversight of
                           Flight Procedures

   FAA Office                                    Responsibilities

Air Traffic Organization

RNAV/RNP Group       •     Implements and integrates RNAV and RNP routes and
                           procedures into the NAS

Aviation System      •     Designs and develops public and special instrument flight
Standards                  procedures (IFP)
                     •     Operates a fleet of flight inspection aircraft for airborne
                           evaluation of IFPs and maintains public procedures
Air Traffic          •     Evaluate and use the procedures operationally
Facilities           •     Train controllers on new procedures
Aviation Safety

Flight Standards     •     Develops and evaluates design criteria for IFPs
Service              •     Oversees flight inspection policy and all IFP development, both
                           FAA and third-parties
                     •     Approves special procedures
                     •     Enforces non-compliance penalties for procedures developed by
                           third parties
Air Traffic Safety   •     Independently oversees the Air Traffic Organization
Oversight Service    •     Audits Air Traffic facilities, including the Aviation System
(AOV)                      Standards (office that develops instrument flight procedures)
                     •     Enforces non-compliance penalties for procedures developed
                           internally

 Recognizing that this organizational framework may cause confusion                       or
 duplicative efforts, FAA entered into a memorandum of agreement between                 the
 Air Traffic Oversight Service and Flight Standards in 2008. The purpose of              the
 agreement was to define oversight relationships and coordination, leverage              the
 resources and expertise of both organizations, and enhance oversight with               the
                                                                                                                     14


ultimate goal of providing one standard of safety oversight for the National
Airspace System.

However, our work has shown that, despite the memorandum of agreement,
unresolved issues still exist between Flight Standards and the Air Traffic Safety
Oversight Division regarding oversight roles and responsibilities, and this will
impact how RNP procedures are implemented. Although FAA’s Flight Standards
office is responsible for overseeing how FAA and third parties develop
procedures, it does not have the authority to enforce penalties for non-compliances
that it finds with procedures developed by FAA employees. That authority lies
within the Air Traffic Safety Oversight Division. However, for procedures
produced by third parties, FAA’s Flight Standards personnel have the authority to
issue penalties for any procedures that they find unsafe. As a result, FAA will
face challenges in meeting its goal of one standard of safety oversight for
internally versus externally developed procedures.

For example, two internal audits performed in 2007 and 2008 by FAA’s Air
Traffic Safety Oversight Office (AOV) and the Flight Standards Flight Procedures
Implementation and Oversight Branch (AFS-460) could not determine that FAA
had performed required biennial procedure maintenance reviews for 100 percent
of the 1,242 procedures sampled in 2007 and the 211 sampled in 2008. These
reviews are important because they assess maintenance of the procedures, such as
checking for new ground obstacles or changes to navigational procedures. FAA
also selected 10 of the 211 procedures sampled during the 2008 audit to check for
safety-related issues. Seven of these 10 had safety-of-flight issues, such as
improper terrain evaluations and destabilized descent, which could lead to
controlled flight into terrain. 16

When these safety violations were identified, representatives from AFS-460
notified the ATO’s Aviation System Standards Office regarding the seven
procedures they found to be unsafe, which resulted in Notice to Airmen actions
and/or procedure amendments. However, AOV, rather than Flight Standards, had
to issue a warning notice because Flight Standards had no enforcement authority
to ensure that FAA corrected the identified problems. Although AOV issued a
warning notice in June 2008, FAA is still working to correct the problems with
performing biennial procedure reviews, almost 3 years after the problem was first
identified.

In addition, Flight Standards Service approves special RNP procedures for use but
does not have to coordinate them at the national level with the FAA Headquarters

16
     Controlled flight into terrain (CFIT) occurs when an aircraft that is mechanically functioning normally is
     inadvertently flown into the ground, water, or an obstacle with inadequate awareness on the part of the pilot of the
     impending disaster.
                                                                                 15


RNAV/RNP program office, which is responsible for integrating RNAV and RNP
routes into the National Airspace System. This is because, in the past, special
procedures were not deployed in complex airspace. Now, special procedures are
envisioned for complex airspace surrounding high density airports, which may
conflict with public procedures also being planned or operated and create
integration problems for the ATO. For example, in 2008, Southwest Airlines
initiated a unique project to implement new RNAV/RNP arrivals and departures
between Dallas-Love Field and Houston-Hobby airports. This project involved
using new design criteria for departures and testing the feasibility of integrating
RNAV routes at higher altitudes with airport-specific RNP arrivals and departures
to link city pairs. Although this project required an extraordinary level of
oversight and coordination between FAA and industry, RNAV/RNP program
officials expressed concern that they were not involved in the initial coordination
process.

According to a Southwest Airlines representative, the airline recently decided not
to pursue the Dallas-Houston project due to FAA’s lack of support for special
procedures. However, coordination at a national level will still be important for
any similar projects in the future. Without a policy that requires coordination at a
national level with the RNAV/RNP program officials in planning and deploying
complex special procedures, FAA cannot ensure that new procedures will be
smoothly and safely integrated into the National Airspace System.


CONCLUSION
FAA’s successful implementation of NextGen is vital to effectively and efficiently
manage the anticipated demand for air travel and reduce gridlock across the
Nation’s airspace and airports. RNAV and RNP are critical building blocks for
NextGen capabilities in the near and midterm. Yet, FAA has not fully laid the
groundwork for successfully implementing RNP procedures that can provide
measurable benefits in terms of capacity enhancements and delay reduction at
airports. Until airline officials have confidence that FAA can produce efficient
RNAV and RNP procedures, they will be less likely to make the needed
investments to equip their aircraft and train flight crews. FAA Headquarters
leadership must clearly define and communicate FAA’s implementation strategy
and the role of third parties. In addition, FAA must address critical coordination
challenges with all stakeholders and refine its oversight program to ensure the safe
and timely implementation of new flight procedures.
                                                                              16



RECOMMENDATIONS
We recommend that FAA:

1. Assess its in-house skill mix to determine whether the Agency has the
   expertise needed to design and deliver more efficient, value-added RNP
   procedures in a timely manner.

2. Clearly define the role of third parties in developing and implementing RNP
   procedures, determine where third parties could play a cost-beneficial role in
   advancing the implementation of new procedures, and issue a report with the
   results of this evaluation.

3. Design an oversight strategy for third parties once the Agency clarifies their
   role in RNP design and implementation.

4. Improve the effectiveness of its approach for implementing new flight
   procedures by:

   a. performing cost-benefit analyses in close coordination with stakeholders
      before and after implementing RNP procedures.

   b. aligning Flight Plan goals with producing beneficial RNP procedures that
      have significant benefits rather than focusing on the number of procedures.

5. Improve the safety oversight and coordination process for implementing new
   flight procedures by:

   a. resolving the Air Traffic Organization’s concerns with the draft guidance
      that authorizes third parties to develop instrument flight procedures.

   b. evaluating and clarifying the 2008 Memorandum of Agreement between
      the Flight Standards Service and the Air Traffic Safety Oversight Service
      regarding oversight roles and responsibilities between these FAA offices to
      ensure that oversight functions are properly coordinated for all instrument
      flight procedures and enforcement actions are handled consistently.

   c. establishing a procedure for Flight Standards to coordinate with the
      RNAV/RNP program office on any request from industry to develop
      special RNP procedures that have national implications to ensure that these
      procedures do not conflict with procedures that already exist or are being
      created.
                                                                                  17


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on October 15, 2010, and received the
Agency’s formal response on November 16, 2010. FAA concurred with
recommendations 1, 2, 3, 4b, 5a, and 5b; partially concurred with recommendation
4a; and did not concur with recommendation 5c. Overall, FAA’s response meets
the intent of most of our recommendations, including actions proposed for 4a.
However, we are requesting that FAA provide target dates for recommendations 3
and 4b and reconsider its position for recommendation 5c. FAA’s response is
included in its entirety as an appendix to this report.

For recommendation 3, FAA concurred but requested that we close it based on its
current oversight system for third parties. However, FAA will not complete its
evaluation and determination of third-party roles until February 1, 2011.
Therefore, we cannot make a final decision on whether FAA has a properly
designed oversight strategy until after the Agency makes its determination on the
role of third parties as recommended in our report.

For recommendation 4a, FAA stated that it will perform cost-benefit analyses
before and after implementing RNP procedures at specific project sites rather than
on a procedure-by-procedure basis. We consider this action reasonable given
FAA’s new Metroplex initiative, in which the Agency plans to measure the
benefits achieved by enhanced flight procedures implemented at 21 busy
metropolitan areas.

For recommendation 4b, FAA stated that it was “considering a proposal” to
eliminate numeric goals from its FY 2011 Flight Plan but did not provide a target
date for completion. In addition to a target date, FAA needs to specify in its Flight
Plan how it will measure and report on progress in establishing new routes. This
clarification is important for airspace users given industry’s strong desire for more
beneficial routes that can enhance capacity and reduce delays.

For recommendation 5c, FAA stated that it has existing guidance that provides
adequate procedures for coordination with all concerned lines of business. We are
aware of this guidance; however, not all of FAA’s lines of business agree that that
the regional coordination process as outlined in the current guidance is adequate
for complex projects, such as the initiative with Southwest Airlines to introduce
new special procedures at select airports. While FAA RNAV/RNP program
officials attended meetings, they expressed significant concern with the overall
level of coordination and the degree of national involvement. Therefore, we
request that FAA determine whether the RNAV/RNP officials’ concerns have
been adequately resolved and evaluate whether the Agency needs to update
                                                                               18


existing guidance to require a higher level of coordination for any future special
procedures that have significant national implications.


ACTIONS REQUIRED
FAA’s planned actions and target dates for recommendations 1, 2, 4a, 5a, and 5b
are responsive, and we consider these recommendations addressed but open
pending completion. We request that FAA provide, within 30 days of this report,
a target date for recommendations 3 and 4b and clarifying information for
recommendation 5c as discussed above. We appreciate the courtesies and
cooperation of FAA representatives during this audit. If you have any questions
concerning this report, please contact me at (202) 366-0500 or Robin Koch,
Program Director, at (404) 562-3770.

                                        #

cc: FAA Senior Vice President for Operations, ATO
    FAA Associate Administrator for Aviation Safety
    Director of Flight Standards Service
    Anthony Williams, AAE-001
    Martin Gertel, M-1
                                                                                19




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
At the request of the Chairman of the House Committee on Transportation and
Infrastructure, Subcommittee on Aviation, we performed an audit of FAA’s plans
for qualifying and overseeing non-governmental third party instrument flight
procedure developers. The objectives of this audit were to (1) assess the extent to
which FAA is relying on third parties for the development of new Required
Navigation Performance (RNP) procedures and (2) determine whether FAA has
established sufficient mechanisms and has sufficient staffing to provide safety
oversight.

To determine the extent to which FAA is relying on third parties for the
development of new RNP procedures, we interviewed managers at all levels of
FAA, officers of the National Air Traffic Controllers Association and Professional
Airways System Specialist organization, the Air Transport Association, and the
chair of the Performance-Based Operations Aviation Rulemaking Committee. We
also met with representatives of the aviation industry who are involved in RNP
design and implementation to ascertain their concerns regarding FAA’s design and
implementation of RNP procedures and whether there is a market for third party
developers. We obtained and reviewed documentation regarding the qualification
of third party vendors to design and implement public RNP procedures as well as
met with officials of the two vendors.

To determine whether FAA has sufficient mechanisms and sufficient staffing to
provide safety oversight, we met with officials of the Flight Standards Service
office tasked with overseeing instrument flight procedure developers and the Air
Traffic Safety Oversight Office. We obtained and reviewed plans for overseeing
third party vendors as well as for implementing the Safety Management System as
a safety oversight mechanism. We also obtained and reviewed staffing
information for the oversight office. We also obtained and reviewed audit reports
from the Air Traffic Safety Oversight Division and the Flight Standards
Implementation and Oversight Branch for procedures developed internally and
externally.

We conducted this audit from March 2009 through October 2010 in accordance
with generally accepted government auditing standards prescribed by the
Comptroller General of the United States. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence that provides a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




Exhibit A. Objecti ves, Scope, and Methodology
                                                                            20


EXHIBIT B. FACILITIES VISITED OR CONTACTED

FAA Headquarters, Washington DC
  • Air Traffic Organization
       o System Operations Services, RNAV/ RNP Program Office
       o Safety Services, Office of Safety Risk Management
  • Aviation Safety
       o Flight Standards Service
       o Office of Air Traffic Oversight


Mike Monroney Aeronautical Center, Oklahoma City, OK
  • Technical Operations Services, Aviation System Standards
  • Flight Standards Service, Flight Procedures Implementation/ Oversight
     Branch


FAA Field Facilities
  • Western Region Flight Procedure Office, Renton, WA
  • Western Service Center, Renton, WA
  • Alaska Airlines Certificate Management Office, Seattle, WA
  • Delta Airlines Certificate Management Office, College Park, GA
  • Eastern Region Flight Procedure Office, College Park, GA
  • Atlanta Terminal Radar Approach Control, Peachtree City, GA
  • Dallas Terminal Radar Approach Control, Dallas, TX


Aviation Stakeholders
  • Professional Aviation Safety Specialists, Washington, DC
  • Air Transport Association, Washington, DC
  • National Air Traffic Controllers Association, Washington, DC
  • Mitre Corporation, McLean, VA
  • Jeppesen Sanderson, Atlanta, GA
  • American Airlines, Fort Worth, TX
  • Delta Airlines, Atlanta, GA
  • Southwest Airlines, Dallas, TX
  • Naverus, Seattle, WA
  • Alaska Airlines, Seattle, WA
  • The Boeing Company, Everett, WA




Exhibit B. Facilities Visited or Contacted
                                                          21




EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Robin Koch                           Program Director

  Coletta Treakle                      Project Manager

  Raymond Denmark                      Senior Analyst

  Claudia Estrada                      Analyst

  Andrew Olsen                         Analyst

  Andrea Nossaman                      Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                              22




APPENDIX. AGENCY COMMENTS


                    Federal Aviation
                    Administration

Memorandum
Date:          November 16, 2010
To:            Jeffery B. Guzzetti, Assistant Inspector General for Aviation and Special Program
               Audits
From:          Clay Foushee, Director, Audit and Evaluations, AAE-1
Subject:       OIG Draft Report: FAA Needs to Implement More Efficient Performance- Based
               Navigation Procedures and Clarify the Role of Third Parties


The Next Generation Air Transportation System (NextGen) is the Federal Aviation
Administration’s (FAA) plan to modernize the National Airspace System (NAS). Through
NextGen. FAA is addressing the impact of air traffic growth by increasing NAS capacity and
efficiency while simultaneously improving safety, reducing environmental impacts, and
increasing user access to the NAS. To achieve its NextGen goals, FAA is implementing new
Performance-Based Navigation routes and procedures that leverage emerging technologies and
aircraft navigation capabilities.

Performance-Based Navigation (PBN) is comprised of Area Navigation (RNAV) and Required
Navigation Performance (RNP) and describes the capability to navigate using performance
standards. RNAV and RNP specifications facilitate more efficient design of airspace and
procedures which collectively result in improved safety, access, capacity, predictability,
operational efficiency, and environment. Specifically, improved access and flexibility help to
enhance reliability and reduce delays by defining more precise terminal area procedures. RNAV
procedures can provide benefit in all phases of flight, including departure, en route, arrival,
approach, and transitioning airspace.

PBN is a cornerstone of FAA’s NextGen vision. As RNAV and RNP procedures are implemented
in the NAS, they may provide additional end-to-end benefits by enabling an integrated procedure
design concept at and between busy airports that will continue to enhance safety and capacity for
industry and the flying public.




Appendix. Agency Comments
                                                                                                  23


OIG Recommendation 1: Assess its in-house skill mix to determine whether the Agency has the
expertise needed to design and deliver more efficient, value-added RNP procedures in a timely
manner.

FAA Response: Concur. FAA will assess its capacity to meet the projected increase in demand
for RNP procedures in support of NextGen, Metroplex and other airspace optimization initiatives.
FAA will complete this assessment by February 1, 2011.

OIG Recommendation 2: Clearly define the role of third parties in developing and implementing
RNP procedures, determine where third parties could play a cost-beneficial role in advancing the
implementation of new procedures, and issue a report with the results of this evaluation.

FAA Response: Concur. The experience of FAA working with the two third-party instrument
flight procedure developers under the Other Transaction Agreement has served as a platform to
compare the relative advantages and disadvantages of third-party procedures development as a
supplement to the FAA’s in-house capability. The FAA will use the results of these efforts to
clearly define the future role to be served by third-party developers. The results of the evaluation
and determination of future third-party roles will be completed by February 1, 2011.

OIG Recommendation 3: Design an oversight strategy for third parties once the Agency clarifies
their role in RNP design and implementation.

FAA Response: Concur. As noted in the report, the Flight Standards Service (AFS) established
the Flight Implementation and Oversight Branch (AFS-460) to provide oversight of third-party
developers. Presently FAA provides comprehensive oversight for the two authorized third-party
vendors for their end to end procedure development activities. Existing staffing and resources are
able to meet current demand. FAA provides oversight using traditional AFS surveillance and audit
program techniques. To date, the demand for third-party public procedures has been limited.
Should the demand for third parties IFP development increase in the future, FAA will adjust its
oversight resources accordingly. FAA requests the OIG close this recommendation.

OIG Recommendation 4: Improve the effectiveness of its approach for implementing new flight
procedures by:

    a. Performing cost-benefit analyses in close coordination with stakeholders before and after
       implementing RNP procedures.

FAA Response: Partially concur. The FAA already conducts site-specific analyses of potential
benefit mechanisms for each project site. Due to the time and level of effort required, only
selected projects are currently assessed post implementation. Under the Metroplex initiative. FAA
will establish study teams to identify solutions that will address the unique challenges at 21
specific geographic areas. Study team recommendations will identify the benefits expected for
each Metroplex and establish a baseline for measuring post-implementation results. The first two
Design and Implementation Teams for North Texas Metro and DC Metro will begin in mid to late
February 2011 and will complete work in 2 1/2 to 3 years. As in all large airspace projects,
benefits will likely not accrue until completion of the project. The FAA has committed to
completing the optimization of airspace and procedures for each of the identified 21 Metroplex
areas within 5-7 years.



Appendix. Agency Comments
                                                                                                24


   b. Aligning Flight Plan goals with producing beneficial RNP procedures that have significant
      benefits rather than focusing on the number of procedures.

FAA Response: Concur. In alignment with RTCA Task Force 5 and OIG recommendations, FAA
is considering a proposal to eliminate numeric PBN targets from its FY-2011 Flight Plan.

OIG Recommendation 5: Improve the safety oversight and coordination process for
implementing new flight procedures by:

   a. Resolving the Air Traffic Organization’s concerns with the draft guidance that authorizes
      third parties to develop instrument flight procedures.

FAA Response: Concur. AFS and ATO senior managers continue to be actively engaged in
discussions to remedy these concerns and have set a target date of March 31, 2011 for resolving
them.

   b. Evaluating and clarifying the 2008 Memorandum of Agreement between the Flight
   Standards Service and the Air Traffic Safety Oversight Service regarding oversight roles and
   responsibilities between these FAA offices to ensure that oversight functions are properly
   coordinated for all instrument flight procedures and enforcement actions are handled
   consistently.

FAA Response: Concur. Air Traffic Safety Oversight Service (AOV) and AFS managers are
currently reviewing the Memorandum of Agreement (MOA). This MOA was developed in order
for AFS to assist AOV in audits, when requested. A thorough review of this MOA will be
completed by March 31, 2011.

   c. Establishing a procedure for Flight Standards to coordinate with the RNAV/RNP program
   office on any request from industry to develop special RNP procedures that have national
   implications to ensure that these procedures do not conflict with procedures that already exist
   or are being created.

FAA Response: Nonconcur. Existing guidance outlined in FAA Order 8260.43A, Flight
Procedures Management Program, set forth adequate procedures for coordination with all
concerned lines of businesses on any request from industry to develop special RNP procedures.
This guidance has been in effect for seven years.

This FAA Order establishes the Regional Airspace Procedures Team (RAPT). The RAPT is the
FAA’s regional point of contact responsible for coordinating, prioritizing, and evaluating requests
for establishment, amendment, and cancellation of flight procedures within the regional
boundaries.

It is intended that the RAPT provide a coordinated FAA response to customer requests and needs
related to flight procedures. As directed by the order, the RAPT is specifically responsible for
developing and maintaining a process for the receipt, review, control, and tracking of flight
procedure requests, suggestions, and initiatives from FAA and other sources so that procedures
are compatible with national and international concepts, plans, goals, priorities, and objectives.




Appendix. Agency Comments
                                                                                                    25


The RAPT is also responsible for supporting national programs and industry activities in matters
associated with flight procedures. It also provides expertise to users and service providers
regarding implementation of satellite-based flight procedures in the National Airspace System and
solicits suggestions and recommendations regarding RNAV and RNP implementation.

The Order also specifies that special procedure requests are considered and processed by the
RAPT in the same manner as standard procedures. Following recommendation by the RAPT and
other required processing and development, special procedures are certified by the Flight
Technologies and Procedures Division, AFS-400, and forwarded to the appropriate AFS Division
for issuance to general aviation operators via letter of authorization from the local Flight
Standards District Office or to air carriers via operations specifications from its certificate holding
office.

The specific example referred to on page 15 of the report concerning the Southwest Airlines RNP
initiative at Dallas Love (DAL) and Houston Hobby (HOU) airports appears to have been a
miscommunication. A review of our records indicates the RNAV/RNP Program Office had a
representative at these initial coordination meetings. Additionally, the procedure developer,
Naverus, provided the FAA representative with access to the Naverus web portal for the
“DAL/HOU Early Adopter Program” where preliminary design graphics were posted. FAA
requests that the OIG close this recommendation.




Appendix. Agency Comments
